<html>
<title> - FROM WARRIORS TO ENTREPRENEURS: BUSINESS OPPORTUNITIES FOR VETERANS</title>
<body><pre>[Senate Hearing 113-239]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-239

 
  FROM WARRIORS TO ENTREPRENEURS: BUSINESS OPPORTUNITIES FOR VETERANS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2013

                               __________

    Printed for the Committee on Small Business and Entrepreneurship


         Available via the World Wide Web: http://www.fdsys.gov


                  U.S. GOVERNMENT PRINTING OFFICE
86-305                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c6d1cee1c2d4d2d5c9c4cdd18fc2cecc8f">[email&#160;protected]</a>  

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED THIRTEENTH CONGRESS

                              ----------                              
                   MARY L. LANDRIEU, Louisiana, Chair
                 JAMES E. RISCH, Idaho, Ranking Member
CARL LEVIN, Michigan                 DAVID VITTER, Louisiana
MARIA CANTWELL, Washington           MARCO RUBIO, Florida
MARK L. PRYOR, Arkansas              RAND PAUL, Kentucky
BENJAMIN L. CARDIN, Maryland         TIM SCOTT, South Caarolina
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KAY R. HAGAN, North Carolina         MIKE ENZI, Wyoming
HEIDI HEITKAMP, North Dakota         RON JOHNSON, Wisconsin
ED MARKEY, Massachusetts
CORY BOOKER, New Jersey
                Jane Campbell Democratic Staff Director
            Skiffington Holderness Republican Staff Director


                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Pryor, Hon. Mark L., a U.S. Senator from Arkansas................     1

                               Witnesses

Hulit, Jeanne, Acting Administrator of the Small Business 
  Administration, Washington, DC.................................     5
Kidd, Kevin, Taco Kidd, Jonesboro, AR............................    12
Coleman, Damian, Marquette GIS, Little Rock, AR..................    14
Wallace, David, Wallace Staffing, Leachville, AR.................    14
Roderick, Janet, State Director, Arkansas Small Business and 
  Technology Development Center, Little Rock, AR.................    19
Nelson, Linda, District Director, Small Business Administration, 
  Little Rock, AR................................................    23
Meador, Itzel, Vice President, Arkansas Capital Corporation, 
  Little Rock, AR................................................    25
Montgomery, Anita, Boots and Bras, LLC, Watson, AR...............    29
Fitch, Esther, Army veteran......................................    32
Frisby, Jeff, Enlisted Association of The Arkansas National Guard    34

          Alphabetical Listing and Appendix Material Submitted


Coleman, Damian
    Testimony....................................................    14
    Letter dated November 5, 2013, to Lena Postanowicz...........    52
Fitch, Esther
    Testimony....................................................    32
    Prepared statement...........................................    33
Frisby, Jeff
    Testimony....................................................    34
    Prepared statement...........................................    35
Hulit, Jeanne
    Testimony....................................................     5
    Prepared statement...........................................     8
Kidd, Kevin
    Testimony....................................................    12
    Prepared statement...........................................    13
Meador, Itzel
    Testimony....................................................    25
    Prepared statement...........................................    27
Montgomery, Anita
    Testimony....................................................    29
    Prepared statement...........................................    30
Nelson, Linda
    Testimony....................................................    23
    Prepared statement...........................................    24
Pryor, Hon. Mark L.
    Opening statement............................................     1
Roderick, Janet
    Testimony....................................................    19
    Prepared statement...........................................    21
Wallace, David
    Testimony....................................................    14
    Prepared statement...........................................    16


  FROM WARRIORS TO ENTREPRENEURS: BUSINESS OPPORTUNITIES FOR VETERANS

                              ----------                              


                        FRIDAY, NOVEMBER 8, 2013

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                   Little Rock, AR.
    The field hearing commenced, pursuant to notice, at 10:00 
a.m., in the Donald W. Reynolds Center for Business and 
Economic Development Auditorium, University of Arkansas at 
Little Rock, Hon. Mark Pryor presiding.
    Present: Senator Pryor.

 OPENING STATEMENT OF HON. MARK L. PRYOR, A U.S. SENATOR FROM 
                            ARKANSAS

    Senator Pryor. I'll go ahead and convene our hearing today. 
This is a Senate Small Business Committee field hearing. It's a 
roundtable discussion on ``From Warriors to Entrepreneurs: 
Business Opportunities for Veterans.''
    Before we get started, I want to recognize Joel Anderson, 
who is the Chancellor here at UALR, who has done a phenomenal 
job for a long time. I've known Joel since I've been in the 
legislature.
    But, anyway, thank you for being here, and we really 
appreciate you letting us use your facility.
    Dr. Anderson. Well, thank you very much, Senator, and I'm 
just here to greet everyone and say welcome to the UALR campus, 
and then I'm going to excuse myself.
    But I first wanted to come by and greet Senator Pryor. He's 
been a friend of this campus for a long, long time, going back 
to the days when he was in the Arkansas legislature. And he has 
certainly continued to support the institution and its 
interests in many ways since he's moved on to the U.S. Senate. 
So we really appreciate that.
    And I also appreciate his interest in small business. It's 
been one of the areas here at the institution that I've been 
proud of and have tried to support through the years.
    I tip my hat to Janet Roderick and her colleagues in our 
Arkansas Small Business and Technology Development Center. And 
I said that rather trippingly. Did you notice how well I got 
all of that out?
    [Laughter.]
    I also want to say welcome to Jeanne Hulit from the U.S. 
Small Business Administration and Linda Nelson. Where is Linda? 
Linda is our local SBA head with whom we've worked for many, 
many years. And I think that all of us working together are 
doing lots of good things for the people of Arkansas, 
especially in promoting small business in Arkansas.
    I was really pleased to hear that this session was going to 
be on this campus, because the notion of moving warriors to 
entrepreneurs--I don't know who coined that, but I think that 
is a really good combination of words. And we're really 
indebted to our veterans, persons who have paid the price and 
taken all the risks that are involved with military service. 
And I know on campus, we have a Veterans Affairs Office.
    But what I like about an event like this on campus is that 
it gives us an opportunity to reach beyond the veterans who are 
students and help those who are not students. Perhaps they will 
be some day. That would be great. But anything we can do to 
help more Americans who have that ambition to start and have 
their own business, we want to support. So I'm just very 
pleased that this session is taking place on campus.
    Senator, you honor us by bringing it to this place. So 
thank you very much for that. I know that you're going to have 
a good session.
    Senator Pryor. Well, thank you. It's great to be with you.
    Let me just say thanks again to Dr. Anderson. He's just 
unbelievable and has just been a great friend to higher 
education, and UALR has done so many great things. Again, thank 
you for allowing us to use your facilities today.
    I also want to thank our participants. We have several 
participants here. We're going to introduce them in just a few 
moments. But I want to give a very special thank you and 
welcome to the Acting Administrator of the Small Business 
Administration, Jeanne Hulit. She flew to Arkansas, and she 
came from--where?
    Ms. Hulit. Palm Desert, California.
    Senator Pryor. Palm Desert, California, to be here. So we 
really appreciate you being here. We know it's Veterans Day 
weekend. That's just around the corner. So thank you for being 
here. You'll see in Arkansas, and here in our state, people 
like to work together. Everybody kind of puts any sort of local 
interest or political thinking aside to try to get good things 
done. And I think, certainly, the SBA story is that way here in 
our state, and UALR has been a very, very important part of 
that.
    With Veterans Day just around the corner, I'd also like to 
thank all of our veterans who are here. I thank them for their 
service, and I thank them for all that they've done for the 
country.
    Earlier this week, I was privileged to be able to go to 
Arlington National Cemetery to do a wreath-laying ceremony at 
the Tomb of the Unknown Soldier, and it was very emotional and 
very moving for me. And it was just a very special and 
meaningful experience. I think if you haven't been there to see 
the changing of the guard and see the wreath laying, you should 
if you ever have a chance to do that. But it was such an honor 
for me to be involved in that.
    We just appreciate everything that our veterans have done 
for our nation. And if you ever come to one of my offices, 
you'll see a sign out front that says, ``I hire vets.'' We take 
that very seriously in our office. We have, probably four 
combat vets on staff right now, maybe more--I'd have to think 
about that--but, at least three or four on staff right now, and 
we've had others.
    One of the things that we see in Washington, when you look 
at the numbers, is that veteran employment is a very important 
issue, because it's a challenge for the country. There's a 
higher unemployment rate there than we'd like to see, and it's 
a significant challenge. There are things we have been doing 
and we will continue to do. We're going to talk about some of 
those today.
    But the Department of Defense estimates that in the next 10 
years, approximately 1 million service members will transition 
from the military to the civilian world. So it is critically 
important that--you know, the DOD and VA are already providing 
education assistance to our service members and veterans 
through military tuition assistance programs and GI bill 
benefits. And, still, I think we're falling short when it comes 
to preparing service members to really enter into real life in 
the business world.
    But we are seeing improvements, and I think things are 
going well. One of the things you see is that the Department of 
Defense, the VA, the Department of Labor, the Department of 
Transportation, and certainly the Small Business Administration 
are working together, and they have these programs that they've 
turned into Transition GPS.
    And I don't want to steal your thunder, Ms. Hulit, but 
there's a lot of good news there. Fully implementing this by 
the end of 2013, this program will extend the transition 
program from three days to five to seven days, standardize and 
expand counseling services for service members before they 
transition out of the military, and also transform the 
military's approach to education, training, and credentialing 
for service members.
    So why is that relevant today? Well, veteran-owned small 
businesses employ over 6 million people and contribute over $1 
trillion to the U.S. economy. Our veterans are twice as likely 
to start a small business and succeed than their non-veteran 
counterparts.
    By including the Small Business Administration in our 
military's transitions program, our transitioning service 
members have greater access to business resources and one-on-
one assistance from professionals like, for example, here at 
UALR, to help them with their business venture, to get that 
started with a solid foundation. Here in Arkansas, we have 
seven small business and technology development centers, all of 
which are partnered with a university.
    We also have the SBA Arkansas District Office and several 
SCORE chapters. I appreciate Linda Nelson for being here today 
and Janet Roderick, who is here today. I want to thank both of 
them, not just for being here, but for all the things they've 
done over the years to help small businesses. Hopefully, they 
can tell us about some of the things they do.
    Many of the participants in today's discussion have 
received assistance from these technology development centers. 
They've been able to formulate business plans, conduct market 
research, and connect to the right counselors and mentors 
through the process.
    For example, Mr. Kevin Kidd is here today. He's one of the 
participants. He leveraged resources available from the 
Arkansas Tech Development Centers and moved from Texas--we 
always love that, right--moved from Texas to open a small 
business in Jonesboro. This was made possible by the SBA loan 
program, which helped him secure the needed access to capital. 
We're going to hear from him in a few moments, too.
    I'm also encouraged by programs like Boots to Business, 
Entrepreneurship Boot Camp for Veterans with Disabilities, or 
EBV, and the Women Veterans Igniting the Spirit of 
Entreprenuership Program, also called VWISE. When I think about 
the women's programs at the SBA, I think about Senator Bumpers. 
Dale Bumpers was the chairman of the Senate Small Business 
Committee for several years. He really had a heart for women-
owned businesses and really tried to make the SBA much more 
female friendly to try to get more and more of those 
entrepreneurs out in the market, and there was a lot of success 
there.
    And the numbers don't lie. Of the 823 veterans who 
participated in EBV programs, 534 went on to start small 
businesses. That's about 65 percent. Of the 988 veterans who 
participated in VWISE, 553 went on to start small businesses. 
That's about 56 percent. And just think about it. That's over 
1,000 new businesses because of these programs.
    Another one of our participants, Anita Montgomery, 
participated in the VWISE program and is working to complete 
her business plan. She believes the training empowered her to 
succeed, and she wants to be a voice for women veteran 
entrepreneurs, which would be great.
    Senator Landrieu is the chair of this full committee in 
Washington. Senator Landrieu and I have been working on 
legislation to improve and expand these services offered by 
SBA. Senator Mary Landrieu is a tireless advocate for small 
businesses. I was in two meetings with her yesterday, where she 
was banging on us about what does this do to small business and 
how can we help small business with this, so she's really 
great. What we hear today is going to help us craft legislation 
when we get back to Washington.
    Access to educational resources is very important, but 
that's only one piece of the puzzle. As you all know--and 
anyone who's been in business understands this and knows this--
that access to capital is both critical, but it's also a 
challenge to receive. And SBA has programs in place to help 
that. I'm not going to go through all the details of that. But 
during FY 2013, the Small Business Administration provided in 
excess of $1.86 billion in loans for veteran-owned businesses.
    And, Administrator Hulit, I would like to just say thank 
you from all of us because of your emphasis on veterans and 
trying to help veterans. The SBA also announced that it would 
be suspending fees on most loans under $150,000, which is going 
to be a big help, and we'll have folks explain that today. And 
I think you may have some other announcements today.
    But, here again, it's helpful that these changes will spur 
lenders to make access to capital more readily available. And 
we want to hear from our business and our veteran leaders here.
    So I'm going to end my remarks here and just want to say 
thank you for being here and turn it over to you. And then 
we'll just kind of co-lead this roundtable discussion.
    Ms. Hulit. Sounds great. Thank you.

 STATEMENT OF JEANNE HULIT, ACTING ADMINISTRATOR OF THE SMALL 
            BUSINESS ADMINISTRATION, WASHINGTON, DC

    Ms. Hulit. Thank you very much, Senator Pryor, and thank 
you for having me here today. I also want to acknowledge the 
great work of Janet Roderick at the SBTDC and our district 
director here in Arkansas, Linda Nelson--wonderful resources to 
your state, and I encourage all the small businesses to take 
advantage of that.
    I'd like to also welcome all the small business owners who 
are here today to join us in this discussion. It's an honor to 
be in Arkansas to highlight SBA's efforts to support veteran 
entrepreneurs throughout the country and throughout this great 
state.
    Each year, there are over 250,000 service members 
transitioning out of the military. These veterans possess 
unique skills, experience, leadership, and drive to make them 
ideally suited to start a small business and create jobs in 
their communities. Our nation's 28 million small businesses are 
the engines of our economy, employing half of the private 
sector workforce and creating two out of every three net new 
private sector jobs in our communities.
    As small business owners, veterans continue to serve our 
country by creating critical employment opportunities and 
driving economic growth. According to the most recent U.S. 
census data, nearly one in 10 small businesses are owned by 
veterans. These businesses generate about $1.2 trillion in 
receipts annually and employ 5.8 million Americans.
    Studies have also shown that veterans over-index in 
entrepreneurship. In the private sector workforce, veterans are 
at least 45 percent more likely than those with no active duty 
military experience to be self-employed. At the U.S. Small 
Business Administration, we are focused on ensuring that these 
veterans have access to the capital, counseling, and federal 
contracting opportunities that they need to start and grow 
successful businesses and create jobs.
    One of the agency's key functions is to support loans to 
small businesses that have challenges obtaining credit in the 
conventional markets. Our loan programs have a strong track 
record of leveraging billions of dollars of credit to help 
entrepreneurs launch and grow their companies and hire new 
employees.
    Here in Arkansas, the SBA has supported more than $116 
million in loans in fiscal year 2013 alone. And in fiscal year 
2013, SBA approved more than 3,000 loans to veteran-owned small 
businesses supporting more than, as the Senator said, $1.8 
billion in credit.
    Today, I have the privilege to announce new measures to get 
even more small business loans into the hands of our nation's 
veterans. Of all SBA loans that go to veterans, 73 percent are 
$350,000 or below. The SBA express program, which supports 
loans under $350,000, is SBA's most popular loan delivery 
method. Since the program's inception, it has also been the 
most popular delivery method for getting capital into the hands 
of our veteran borrowers.
    So effective January 1st, the SBA is setting the upfront 
fee for borrowers to zero for all veteran loans authorized 
under the SBA express program, effectively making these loans 
cheaper for borrowers and further increasing access to capital 
for the men and women who have served our country in our 
nation's military.
    This year, SBA also challenged our top national and 
regional lenders to pledge to increase their lending activity 
to veterans by 5 percent each year for the next five years. 
With this support from our lending partners, the SBA expects to 
serve an additional 2,000 veterans and get over $4.75 million 
into the hands of veterans.
    In Leachville, Arkansas, veteran entrepreneur David Wallace 
of Wallace Staffing has been able to utilize SBA resource 
partners to launch and expand his business. Davis, who is here 
with us today, served on active duty in the Army for 21 years 
and in 2002 started his own company which he was able to expand 
with the help of classes and training from the SBTDC in 
northeast Arkansas.
    He ultimately sold that business and founded Wallace 
Staffing for which he received an SBA loan in 2010. The 
company, which often hires veterans for its projects, focuses 
on disaster cleanup and recovery.
    Thank you, David.
    Our studies have shown that small business owners that have 
a long-term counseling relationship with one of our SBA 
resource partners are more likely to hire, grow, and increase 
revenues. In 2013, with our resource partner network, including 
the Small Business Development Centers, Veteran Business 
Opportunity Centers, Women's Business Centers, and SCORE 
volunteers, SBA has helped train and counsel more than 107,000 
veteran business owners to date.
    Here in Arkansas, countless veterans have taken advantage 
of our strong network of resource partners throughout the 
state. While we're proud of our success, we continue to develop 
new ways to assist more aspiring veteran entrepreneurs. Our 
veterans possess the skills, experience, and leadership to 
start businesses and create jobs in their communities, and our 
goal is to give each of these men and women the tools that they 
need to make informed decisions about whether or not they 
should pursue entrepreneurship.
    One of the ways we have done this is through our intensive 
entrepreneurship training classes, such as the Senator 
mentioned, our Entrepreneurship Boot Camp for Veterans with 
Disabilities, or EBV, our Women Veterans Igniting Spirit of 
Entrepreneurship, VWISE, which focuses on training and 
networking for veterans. On January 1st, 2013, we also began 
rolling out Operation Boots to Business, From Service to 
Startup, a nationwide entrepreneurship training program in 
partnership with the Department of Defense.
    Boots to Business is currently offered to transitioning 
service members in locations across the country. There's over 
150 military installments, and in the fiscal year 2014 budget, 
the request is to expand the program significantly.
    In addition to our capital counseling programs, SBA also 
supports small businesses engaged in federal contracting. We 
are responsible for ensuring that 23 percent of federal 
contracting dollars go to small businesses. And in 2013, 
veteran-owned small business owners won more than $12.2 billion 
in federal contracts. For the first time ever, the federal 
government also exceeded its 3 percent goal to contract with 
service disabled veteran-owned small businesses.
    While we're proud of our success, we continue to develop 
new ways to assist aspiring veteran entrepreneurs. After World 
War II, our nation's veterans helped reshape the American 
economy, contributing to one of the longest periods of economic 
growth in our country's history. At the SBA and across the 
Obama administration, we know that with the right tools and 
opportunities, our nation's veterans can continue to build our 
economy for the long term.
    Thank you again for welcoming me here today. I'm happy to 
answer questions later.
    Senator Pryor. Great. Since we have a great panel of small 
business veterans, let's go ahead and just kind of go one by 
one around the table. And if you can just give us two to three 
minutes maximum and introduce yourself, your name, what city 
you're from, what your business is, and just maybe a brief 
description of that, and everybody try to keep that to maybe 
two minutes or three minutes at the very most.
    Why don't we start down here with Mr. Kidd.
    Go ahead--and maybe what branch of service you've been 
with, too.
    [The prepared statement of Ms. Hulit follows:]

    [GRAPHIC] [TIFF OMITTED] T6305.001
    
    [GRAPHIC] [TIFF OMITTED] T6305.002
    
    [GRAPHIC] [TIFF OMITTED] T6305.003
    
    [GRAPHIC] [TIFF OMITTED] T6305.004
    
       STATEMENT OF KEVIN KIDD, TACO KIDD, JONESBORO, AR

    Mr. Kidd. Hello. My name is Kevin Kidd. I'm the owner of 
Taco Kidd, which is located in Jonesboro, Arkansas. I served in 
the Marine Corps from September of 1986 to March 1993. I, like 
a lot of veterans, had aspirations of becoming an entrepreneur.
    I began that pursuit in May of 2011 while still living in 
Laredo, Texas. I was visiting relatives in my home state of 
Arkansas and decided to talk with a local realtor about the 
possibilities of a commercial lease for a business idea.
    My business idea was about bringing in a Mexican quick 
service restaurant to northeast Arkansas, based on my exposure 
to nine years of living in southern California and 11 years 
living in south Texas. This idea was based on an already 
successful concept of delivering the freshest and most real 
ingredients in an efficient manner.
    After receiving a favorable commitment from a local 
realtor, I decided to pursue help from the Arkansas Small 
Business and Technology Development Center. I attended the 
ASBTDC's seminar on starting a business. The seminar was free 
because I was a veteran.
    After the training, I began working with an ASBTDC business 
consultant named Laura Miller. She helped me prepare financial 
projections and complete the business plan and loan 
application. Because of my veteran status, we decided to pursue 
the Patriot Express Loan, which would speed up the normal SBA 
process. The market research I received from the ASBTDC was 
invaluable, and my loan was approved by Liberty Bank, which is 
now Centennial Bank.
    We opened Taco Kidd on September 18, 2012, 15 months after 
the initial process began. Since then, we have received two 
federal grants in the amount of $19,500 and $12,500 from the 
Federal Home Loan Bank of Dallas. As well, we are to receive an 
additional $35,000 which was refinanced in the original loan.
    In each of these cases, it was through the assistance of 
Laura Miller and the ASBTDC and my local bank, which was 
Liberty Bank, and Debra Taylor. Honestly, without the help of 
the ASBTDC and those federal loans, as well as the additional 
refinance, Taco Kidd would not have survived the first year. 
However, because of that, a lot of hard work, perseverance, and 
a little luck, we are still here and almost at the point of 
thriving.
    Any veteran wanting to start a business should contact the 
nearest ASBTDC office. They helped me with starting Taco Kidd, 
and I would definitely recommend their services to other 
veterans. Thank you.
    [The prepared statement of Mr. Kidd follows:]

    [GRAPHIC] [TIFF OMITTED] T6305.005
    
  STATEMENT OF DAMIAN COLEMAN, MARQUETTE GIS, LITTLE ROCK, AR

    Mr. Coleman. I'm Damian Coleman, President and Owner of 
Marquette GIS here in Little Rock, Arkansas. I served in the 
U.S. Army as a topographic analyst--that's a map maker--from 
1997 until January of 2002 when I was discharged with an injury 
from a helicopter. I used my military training to obtain a job 
with a defense contractor, and I worked for that company for 
several years before branching out to contract on my own.
    I originally formed my company in Louisville, Kentucky, in 
2006, and really with no access to capital, the company didn't 
grow, and I actually ended up losing money and that put me on 
hold for a while. I got a contract with the state of Arkansas 
in 2007 and reincorporated the company in 2009 here in Little 
Rock.
    From that point on, the company has been growing. But I was 
having difficulties with expanding. I closed on a loan that I 
acquired through the SBA the 21st of last month. And in that 
time, I have already acquired two more loans for scanning maps 
to the state's counties. I wouldn't have been able to have done 
that without having the additional space.
    A lot of my experience with the SBA was--I received my loan 
through the Arkansas Capital Corporation with the help of Itzel 
Meador, and I received a lot of help from the Arkansas Small 
Business Technology Development Center through Nancy Knighten. 
I really want to thank both of you for the help that you've 
given me.
    My company is a geographic information systems consulting 
and staffing firm. And for those who don't know what GIS is, to 
make it simple, it's just the background workings, like making 
GPS devices work and things like Google Maps. I also recruit 
for IT positions for several state governments. Currently, we 
have contracts to recruit for eight states.
    I really wish that there had been more information about 
the SBA available when I got out of the military, because 
starting a business is something that I've wanted to do since 
my late teens. But it wasn't in the GIS field. I mean, luckily, 
I was able to get the military training to be able to have 
something that would transition into the private sector. But if 
I had had that information available to me, there's a very 
strong chance that the business I started back in 2006 would 
have succeeded.
    Senator Pryor. Well, that's one of the things that SBA is 
talking about, trying to make that information more available, 
more accessible.
    Mr. Wallace.

  STATEMENT OF DAVID WALLACE, WALLACE STAFFING, LEACHVILLE, AR

    Mr. Wallace. My military experience involved helicopters, 
Cobras, and I was good at blowing up the things, and that skill 
doesn't really translate well into the civilian world. Yes, 
demolition.
    Senator Pryor, I'd like to thank you, first of all, for 
helping us with the Arkansas State ROTC program. Thank you very 
much for saving it for another year.
    I would not be in business today without the help of SBA. 
The training they have given me and the classes I've gone to 
taught me a lot. When I came out of the service, I didn't have 
a clue about how the civilian world operated. Laura Miller 
helped me immensely.
    My second company--when I picked up the Patriot Loan, I 
picked up $262,000 on that. The difference in that loan, which 
is a 5.5 percent loan--and we've grown so rapidly that I've had 
to pick up a second loan out in the commercial market for my 
accounts receivable. That loan is 18 percent. That's an 
enormous difference. That's what SBA has done for me.
    We've been fortunate in the last four months. We've built 
out about $1.8 million and 70 percent of that has come back to 
the folks in our country as payroll. So most of our expenses 
are payroll. SBA has helped me, especially Laura Miller, and 
Herb Lawrence with the Small Business Technology Center. 
There's another group of guys that's with what we call in 
Arkansas APAC, the Arkansas Procurement Agency. Again, they've 
helped me win government contracts. They've taught me a lot 
about how to deal with government agencies in bidding, and all 
of that is free.
    I've bounced back and forth between the corporate world at 
the senior executive level and owning my own companies. And the 
advice and the help that I get from SBA, when I had to do that 
with national companies, I was paying folks $40 and $50 an hour 
and sometimes more than that. The Small Business Technology 
Center has given that to me free. So thank you very much for 
all your help.
    [The prepared statement of Mr. Wallace follows:]

    [GRAPHIC] [TIFF OMITTED] T6305.007
    
    [GRAPHIC] [TIFF OMITTED] T6305.008
    
    [GRAPHIC] [TIFF OMITTED] T6305.009
    
  STATEMENT OF JANET RODERICK, STATE DIRECTOR, ARKANSAS SMALL 
  BUSINESS AND TECHNOLOGY DEVELOPMENT CENTER, LITTLE ROCK, AR

    Ms. Roderick. I really hate to follow stories about small 
businesses, because they're so exciting for me. And I'm here 
just to talk a little bit about our services that you've heard 
a lot about.
    So, Senator Pryor and Administrator Hulit, thank you for 
being here and supporting our program. I'm the State Director 
for the Arkansas Small Business and Technology Development 
Center, which is a difficult name for me to say as well. I'm 
the person that's lucky enough to get to work with Nancy 
Knighten and Laura Miller and Herb Lawrence and a variety of 
other counselors located in our six offices throughout the 
state of Arkansas.
    We are with the College of Business here at UALR and so are 
our other offices throughout the state. It's a big benefit in 
Arkansas that the colleges of business support the Small 
Business Development Centers. We work with Arkansans from all 
walks of life who want to start a business. We've assisted a 
number of veterans with fulfilling their dreams of business 
ownership.
    In our experience, two of the most common challenges they 
face are financing their ventures and determining the market 
for the type of business they want to start or buy. Like the 
majority of our clients, access to capital is an issue for 
veterans wanting to become entrepreneurs. Many will need bank 
loans plus their own resources. But even before seeking to 
obtain financing, entrepreneurs must know if a market exists 
for their prospective business product or service.
    The market research data and analysis at ASBTDC provided 
free of charge can help new entrepreneurs make informed 
decisions before they sign the lease or commit their funds for 
their startup concept. Any Arkansas veteran who is a current or 
prospective small business owner can get no-cost, confidential, 
one-on-one professional business counseling from the ASBTDC.
    Our experienced consultants provide resources and 
recommendations for any type of for-profit venture. We can help 
veterans create a business plan; help determine if the business 
idea is feasible; and assist with money, management, or 
marketing issues. We have walked veterans through the SBA loan 
application process, including, as you've heard here, the 
Patriot Express loans, many times and have assisted veterans in 
their successful pursuit of small innovation research and small 
business technology transfer funding.
    For veterans who are already in business, we can provide 
training and consulting on government contracting, an important 
opportunity for veteran-owned businesses. Veterans may attend 
our fundamental startup business seminar, Starting a Business 
in Arkansas, free, as you've heard. Regularly offered at 
locations throughout the state, the class really helps prepare 
participants for the intensive business planning process. Since 
2004, 350 veterans have taken advantage of this offer, 
including 46 this year.
    Serving in the military is not just a job. It's a total 
commitment. Building a solid and successful business requires a 
similar level of commitment and a can-do attitude. We at the 
Arkansas Small Business and Technology Development Center are 
eager to help veterans turn their vision, skills, and 
experience into successful businesses.
    Thank you.
    Senator Pryor. Thank you.
    [The prepared statement of Ms. Roderick follows:]

    [GRAPHIC] [TIFF OMITTED] T6305.010
    
    [GRAPHIC] [TIFF OMITTED] T6305.011
    
 STATEMENT OF LINDA NELSON, DISTRICT DIRECTOR, SMALL BUSINESS 
                ADMINISTRATION, LITTLE ROCK, AR

    Ms. Nelson. Senator Pryor, thank you for inviting me and 
for getting our administrator to come to Arkansas. It's always 
an honor, and I love being with her. She is very down to earth 
and very engrossed in what she's doing for small businesses and 
for veterans.
    To those who have testified about using our programs, I'm 
glad that you found them, and we'll try to make them more 
readily available. And to Mr. Kidd, I would say that that luck 
was really because you would not give up, and to the others, 
too.
    And, Dave, I need to talk to you about that 18 percent 
loan.
    [Laughter.]
    I've been the District Director since 2004, and I have a 
total of 35 years with SBA. We have a staff of 10, and six of 
them are veterans. Two of the three professionals that I've 
hired are veterans, including our newest deputy, Jim Aardappel. 
And three of the four promotions that have been done in my 
tenure were veterans. I know a good thing when I see it. I 
appreciate the skills and the training that they bring from 
their military service.
    We cover all 75 counties of Arkansas from the main office 
in Little Rock and a satellite office in Fayetteville. 
According to the latest census, there are some 245,000 veterans 
in Arkansas. That's 8 percent of the population compared to 7 
percent nationally. And veteran-owned firms account for 10 
percent of all firms in Arkansas, some 25,000, compared to 
about 9 percent nationally. There's not many statistics 
Arkansas has where we're a little bit better than the national, 
so that's why I'm emphasizing this.
    During those 10 years since I have been the District 
Director, we've made SBA loans to 441 veterans for over $98 
million, which is about 11 percent of our loan volume over that 
period. We can do more, and we expect to see increases because 
of the lenders-veterans pledge that our administrator 
initiated.
    We have three lenders who took the pledge headquartered in 
Arkansas, and that's more than any other state, I believe--
Arkansas Capital Corporation, who is represented here today; 
Evolve Bank out of West Memphis; and Arvest Bank headquartered 
in Fayetteville. I'm also sure that the administrator's new 
proposals as outlined today will make a difference. She and her 
predecessor really worked to streamline and simplify.
    We have implemented the Boots to Business training program 
at Little Rock Air Force Base and hope to expand it to the 
National Guard and Reserves as well. Through the years, we have 
also participated in the mobilization, demobilization, yellow 
ribbon events to be there with the ASBTDC to help those who 
might want to start a business when they come back, or if they 
have one, to help them stabilize it while they're gone.
    Thank you again, Senator, for your service, as always, and 
this opportunity.
    Senator Pryor. Thank you.
    [The prepared statement of Ms. Nelson follows:]

    [GRAPHIC] [TIFF OMITTED] T6305.012
    
    Ms. Meador.

  STATEMENT OF ITZEL MEADOR, VICE PRESIDENT, ARKANSAS CAPITAL 
                  CORPORATION, LITTLE ROCK, AR

    Ms. Meador. I always get very excited to hear stories about 
small businesses. We had an opportunity to visit before we got 
here, and it was great.
    And, Senator Pryor, I'm just so thankful that you have 
given us this opportunity to speak, but, more importantly, to 
have us all together in a room. That makes a really big 
difference.
    Jeanne, we're very thankful to have you here in Arkansas.
    As Vice President of Arkansas Capital Corporation, it's 
really an honor to be able to facilitate loans for veterans. 
I've been with Arkansas Capital Corporation for over 13 years, 
and I am just really excited to be able to help servicemen and 
servicewomen who have done so much for our country. My husband 
is a disabled veteran, so I have a special connection with some 
of you.
    Arkansas Capital Corporation was formed in 1957, and it is 
a privately held nonprofit organization that's dedicated to 
improving economic growth here in Arkansas and also promoting 
job creation. Arkansas Capital Corporation and Six Bridges 
Capital Corporation, which is an affiliate company, empowers 
entrepreneurs by providing capital to businesses through its 
government guaranteed programs.
    According to an advocacy study that was performed by SBA, 
veterans are at least 45 percent more likely than those with no 
active military duty experience to be self-employed. However, 
there are challenging economic times that make it very 
difficult for veterans to get access to capital.
    With the assistance of the U.S. Small Business 
Administration, and a great partnership with the Small Business 
Technology Development Center, Arkansas Capital Corporation and 
Six Bridges Capital have been able to provide access to this 
capital. SBA has a product specifically for the military or 
former military or spouses and widows known as the Patriot 
Express.
    We are a Patriot Express lender, and this program 
streamlines the application process for not just startup 
businesses, but also for existing businesses. Not only are we 
Patriot Express lenders, but we are also a preferred lender 
with the SBA. So we have the ability to process SBA 7(a) loans 
more efficiently and effectively. In 2013, we initiated the 
Express 150 which allows us to be able to put together an SBA 
loan faster. It promotes access to capital for loans from 
$50,000 to $150,000.
    Veterans have a track record of starting and being 
successful with their small businesses. We also have the Vet 
Loan Advantage through our sister company, Six Bridges Capital 
Corporation, and veterans have access to capital at a lower 
cost. The Vet Loan Advantage from Six Bridges Capital 
Corporation provides businesses with substantially lower 
processing fees, which allows veterans to start or expand their 
businesses with fixed assets. This helps veterans strategically 
position themselves for long-term growth while preserving their 
working capital.
    As Linda had noted, we are signed on for the SBA's veteran 
pledge initiative, which means we have a commitment to increase 
lending to veterans by 5 percent per year for the next five 
years. We're excited to have one of our customers here, Damian 
Coleman. And we really want to be able to grow our company in 
the fact that we are able to promote more with veterans.
    We really are thankful for the opportunity, Senator Pryor, 
to be here and to be able to represent our company.
    [The prepared statement of Ms. Meador follows:]

    [GRAPHIC] [TIFF OMITTED] T6305.013
    
    [GRAPHIC] [TIFF OMITTED] T6305.014
    
    Senator Pryor. Thank you.
    Ms. Montgomery.

 STATEMENT OF ANITA MONTGOMERY, BOOTS AND BRAS, LLC, WATSON, AR

    Ms. Montgomery. Senator Pryor and other distinguished 
guests participating today, thank you for the opportunity to be 
here to speak on behalf of women veteran entrepreneurs. My name 
is Anita Montgomery. I have been a veteran for 23 years after 
having served in the U.S. Air Force. I am the founder of Boots 
and Bras, LLC, a startup manufacturing company celebrating the 
uniqueness, the challenges, and the triumphs of the female 
veteran and the active duty service member.
    As the Senator mentioned, I am a 2013 Seattle VWISE grad, 
and I'm also a National Veterans Small Business Conference 
participant. When I first sat down with my rep at the Small 
Business and Technology Development Center earlier this year, I 
told her, ``I want to start my own business, but I want the 
SBTDC to write my plan for me.'' This came from a person who 
has spent her entire professional life as a writer, but the 
task seemed so daunting.
    However, as one VWISE instructor said, the most important 
part of writing the plan is the process of writing it. The 
VWISE program in combination with the Little Rock SCORE office 
have provided me with the tools to launch my business.
    While the Veterans Small Business Conference gave me the 
information necessary to lay the groundwork to achieve my 
short-term goals, the Small Business Conference gave me the 
long-term groundwork to achieve my long-term goal of 
contracting with the DOD and VA to place my product in the 
respective commissaries. As a service connected disabled vet, I 
am also working with the VA Voc Rehab program to tap into all 
resources available in an effort to ensure greater success in 
the venture.
    For this invaluable support along the way, I am immensely 
grateful.
    [The prepared statement of Ms. Montgomery follows:]

    [GRAPHIC] [TIFF OMITTED] T6305.015
    
    [GRAPHIC] [TIFF OMITTED] T6305.016
    
    Senator Pryor. Thank you.
    Ms. Fitch.

                   STATEMENT OF ESTHER FITCH

    Ms. Fitch. My name is Esther Fitch, and I am a 23-year Army 
vet. I very recently decided to go into a business ownership 
venture after serving 23 years in the Army as a licensed 
practical nurse and the last six years as an AMEDD recruiter.
    I received a lot of leadership skills during my time in the 
military but I found that I was not able to use leadership 
skills and military ethics in the civilian workforce. After 
retiring in 2008, I worked in several different areas, and I 
just could not find what I was looking for.
    I'm a licensed practical nurse and the business that I'm 
planning to start is a janitorial service. But that's just the 
first step. I don't plan on being there forever. I'm going to 
have to get back to my nursing roots.
    I found the SBA by pure accident. I was looking for the 
SCORE office and happened to run into Ms. Penny Fogle, who was 
the veterans representative with the SBA, as I was leaving the 
building. She stopped me and brought me into her office, and we 
sat down and talked for four hours about a lot of the 
opportunities that are available with the SBA for startup 
business owners.
    Now, since I'm a startup company, of course, this is all 
very new to me, and I know that I'm going to continue to need 
their assistance. But the first step that was given to me was 
getting in touch with the Arkansas Small Business and 
Technology Development Center. They have been a great asset in 
helping me with the first step, which is the business plan.
    I have every confidence in the world that they are going to 
be there with me throughout the continued steps of getting my 
business started. Thank you for this opportunity to sit on this 
board, because it has definitely given me that boost that I 
needed to get back on track.
    [The prepared statement of Ms. Fitch follows:]

    [GRAPHIC] [TIFF OMITTED] T6305.017
    
    Senator Pryor. Thank you.
    Mr. Frisby.

STATEMENT OF JEFF FRISBY, ENLISTED ASSOCIATION OF THE ARKANSAS 
                         NATIONAL GUARD

    Mr. Frisby. Good morning. My name is Jeff Frisby. I am a 
current serving member of the Arkansas Army National Guard. I 
am a resident NCO full time member of the Arkansas National 
Guard, serving in Searcy, Arkansas, at HHC 2nd in the 153rd. I 
am here this morning on behalf of the Enlisted Association of 
the Arkansas National Guard, and I'm very honored to be here.
    On behalf of the enlisted members of the Arkansas Air and 
Army National Guard, we are honored to be here today. We have 
nearly 8,000 enlisted soldiers and airmen in our ranks, and we 
represent some of the greatest men and women that Arkansas has 
to offer, citizen soldiers and airmen who have continually 
demonstrated hard work and commitment to their nation, state, 
communities, and families.
    I have been working with the Enlisted Association for over 
14 years, serving in almost every capacity within our 
association, to include currently serving on our National Board 
of Directors. We are the only organization who can actually say 
that our only interest is to promote, protect, and to support 
legislation and programs that benefit the enlisted members of 
the National Guard.
    Of our enlisted force in Arkansas, we have 900 full time 
active Guard-Reserve workforce. Each year, about 40 of those 
members retire or transition into the civilian workforce. 
Arkansas has also had multiple deployments in the recent years, 
sending soldiers and airmen from almost every small town across 
the state overseas, warriors who have left their jobs often to 
wonder what would welcome them once they return home.
    If the transition is from our full time workforce or just 
simply returning from a mobilization, the National Guard has 
depended on the services and support and the insight of the SBA 
and programs like the Transitional Assistance Program. 
Representing what we consider one of the most reliable and best 
trained available workforces to employers across the state, 
we're extremely eager to be here today to extend these services 
to each and every member of the Arkansas National Guard.
    It's an honor to be here today and speak on behalf of these 
incredible Arkansans who have shown true dedication and 
commitment.
    Thank you, Senator, for giving us the opportunity to 
provide their voice to this group today as we seek ways to 
expand these programs and educate our Guardsmen on their future 
endeavors.
    [The prepared statement of Mr. Frisby follows:]

    [GRAPHIC] [TIFF OMITTED] T6305.018
    
    Senator Pryor. Thank you, and thanks again for your service 
and for being here.
    Here's what we'll do. We're going to kind of co-lead this, 
Ms. Hulit and I are, and we'll just start asking questions. And 
maybe what we ought to do to kind of allow us to see who wants 
to make a point or has a question--in a lot of these sessions, 
what we'll do is get you to get your name tag and just sort of 
stand it up, and that way, we can look and see who wants to ask 
a question. It's not quite the free-for-all at that point--so 
whether you want to ask a question or answer a question or make 
a point or whatever.
    But let me start, if I can, by asking Ms. Roderick and also 
Ms. Nelson about the types of people you see come in the door. 
How prepared are veterans to really get that business going? 
They may have a great idea. They may or may not have a real 
developed plan or not. But what's the typical person that comes 
in that needs some help and wants some of your services?
    Ms. Roderick. I don't want to make this sound wrong. 
Veterans are different when they come through the door. They 
seem to have more commitment to succeeding. On the other hand, 
oftentimes they're unsure that their idea is good. They have 
been exposed, I think, to a lot of--you know, there's always 
bad people out there who are trying to suggest that they've got 
the answer to get your product in the market.
    There's a number of people out there, no matter what the 
situation is, who are ready to take advantage of someone. I 
think veterans are oftentimes taken advantage of or given the 
wrong information on how to get their business started. So we 
have that issue, I think, always. I mean, I can't point to a 
specific story, but there's a wide variety of them.
    So it's kind of cutting through the clutter and getting 
your information about the Small Business and Technology 
Development Center and the SBA's other programs to the veteran. 
We always ask the question, ``How did you find out about us?'' 
And our biggest referral source is our bankers, and people 
often hear about us--when I asked the question this morning, it 
was word of mouth. So a lot of this is providing information at 
briefings and letting people know who we are and where we are.
    Ms. Nelson. I agree with a lot of what she said. But one 
thing I think I've noticed a difference in is they're a little 
bit better prepared to ask questions. You know, most people who 
are starting a business for the first time don't always know 
everything they need to know. They don't know what they don't 
know.
    But I've found that many of the veterans I've talked with 
ask a lot more questions than those who aren't. I think they're 
resilient. I mean, you just sense that they're going to do 
this, and they're going to do whatever it takes to get it done. 
So that would be just one thing to add to it.
    Ms. Hulit. Thank you. I just want to say one of the themes 
that I heard from this panel and that I hear many times when I 
do outreach about the SBA is the lack of awareness of what's 
available. I think the federal government has an enormous 
amount of wonderful resources but no marketing budget to 
promote them.
    So I guess my question for you is what could we do or do 
differently to get the word out so that you didn't have to sort 
of stumble across our resources. Some of the initiatives that 
we talked about--the Boots to Business to help transitioning 
service members get information about entrepreneurship and 
resources as they're exiting. The military is one of those 
efforts. All those efforts require resources from us to get 
those programs out.
    But where is the source of information most available to 
you, and where would you go look?
    Mr. Wallace. If I was a new veteran coming out, the 
Transition Assistance Program, TAP, in the Army, with the 
military period. That's probably the last central location that 
every trooper will go through. You may have it already, but if 
there's a link between the SBA and TAP, that would be an 
inexpensive way for you all to reach out and touch literally 
every military person coming out.
    I wasn't fortunate enough to go through TAP when I 
returned. I didn't know about it, and, frankly, I was lost for 
about three or four years. You know, the civilian community 
didn't post rule guards at the crosswalks, so I didn't know how 
to even cross the road or anything. I was used to doing all 
that in the military, and I had to learn the hard way.
    But the TAP program they have now does a pretty good job of 
helping the guys. And I would suggest that might be an 
inexpensive way to market your services.
    Ms. Hulit. Thank you. That is an area where our Boots to 
Business is really connected and an area that I know the 
Senator is very supportive of us expanding. For those that 
aren't transitioning out but are in the communities already--I 
know Janet mentioned that most of her referrals come from the 
banks. But is there another sort of public resource--we have a 
website, but everybody has a website--that makes the most sense 
for us to put some resources into promoting?
    Ms. Montgomery. As a former county veteran service officer, 
that is a part of the CVSO's job. I don't know how it's set up 
in other states, but here in Arkansas, we have a county 
veterans service officer in every county. And our CVSOs need 
this information. I followed VWISE on Facebook for a couple of 
years before I committed to it. But it just happened that 
something from EBV came across my desk. The CVSOs have state 
training every year, so networking and giving these CVSOs that 
information so that they can turn around and say, ``You know, 
have you thought about doing this?''
    Ms. Nelson. If I could just add thing, Penny Fogle 
participated in that training this year. So we may have lucked 
into the right place.
    Ms. Hulit. Thank you.
    Ms. Fitch. Well, one of the things that I think would be a 
good way to get the word out--and I can speak from personal 
experience, because this is something that I'm going through 
right now. Most of us know where to go to get the business 
registered. That's where I first started to hear that there 
were other organizations out there. Through just talking to 
people in the past, I had heard about SCORE. But the SBA was 
just not one of the organizations that I knew that was 
available to me.
    If there was someone there at the secretary of state's 
office, where you register your business, who could give a 
little bit more information on that or just include that in 
their presentation or their information when they are talking 
to you about how you register your business--and I know that 
that may not be their total responsibility. But they could 
either have literature on it or just mention it, because, let's 
face it. There are a lot of questions that you just don't know 
that you need to ask about what is available to you. That would 
probably be a good place to start, just having them be able to 
point us in the right direction.
    Ms. Nelson. We did that for a while at the secretary of 
state's office, and I know that SCORE has continued to do it at 
times. But you make a very good point. We didn't think we were 
meeting the needs. We'll reconsider that.
    Senator Pryor. Let me ask a follow-up on that, if I can. I 
know that all of you have gone to the SBA for one thing or 
another. Once you get there, is it a friendly environment? Is 
it something that's encouraging? Tell us about that. How does 
that go?
    Mr. Wallace. Every office that I've dealt with that 
involved SBA has been proactive in dealing with me. They've 
been friendly when I walked in. I still ask a lot of dumb 
questions, and they give smart answers to my dumb questions, 
and they follow up. I get calls all the time from Ray Blevins 
at APAC. I get calls all the time from Laura Miller, saying, 
``Hey, how are you doing? What do you think about this? How can 
we help you?'' They're good folks.
    Senator Pryor. I have a question for Mr. Kidd as well while 
we're kind of on that topic. I know your story is you were down 
in Texas somewhere. How did you find Jonesboro? Was SBA part of 
that, or did you have some connection there?
    And, also, I have a question that's related. I noticed that 
one of the things you do in your business, as I understand it, 
is you somehow designate 10 percent of your revenues--I'm not 
quite sure how--to local churches--and charities, I guess--but 
local churches. And I'm curious if that was part of your 
business plan. Obviously, it's been a big motivator for you to 
do this. But I'm wondering if that was part of your business 
plan and how all that came about.
    Mr. Kidd. Well, as far as knowing about Jonesboro, I grew 
up in Blytheville, Arkansas. I was born on the Air Force Base 
there. My dad was in the Air Force. Like most people in 
northeast Arkansas, everybody gravitates towards Jonesboro. 
When I started making plans to come back home with an idea, 
naturally, Jonesboro was the best choice. It's a thriving city, 
a nice place for your family, and I wanted to be a part of 
that.
    Also, I thought that my business idea would do well there. 
There's the Arkansas State University. We've got a brand new 
hospital, the Northeast Arkansas Baptist Memorial, that's 
getting ready to open in about two months. That was a huge part 
in picking the location where I'm at.
    As far as the 10 percent, I wasn't aware that you knew 
about that. Really, I was just trying to get the community more 
involved with Taco Kidd. And the way I wanted to do that was, 
like, if you can help support a local business owner, I'm 
willing to give back, because one of the struggles of going out 
on your own and starting something completely new that nobody 
knows about is getting people to know who you are. That's been 
one of the biggest challenges that I've had, and it's getting 
better. It really is.
    As I mentioned earlier, Laura Miller and her team have been 
a huge help. Every time that I've gone to her, she's been able 
to help me get one step further. And I even feel like that will 
continue. I mean, I still have a young business. I talk to her 
frequently, also, and that's exciting. More veterans need to 
know about that.
    I kind of stumbled--I was telling Janet earlier that I had 
a family relative that simply said, ``Oh, I know somebody who 
did this.'' So I sought out the ASBTDC, and from that point on, 
all the doors opened. They really did. You know, they said, 
``Well, what was your struggle through the process?'' I really 
didn't have a struggle getting to the loan. It was once the 
doors opened to our business that the struggle began, you know, 
like most business owners. But other than that, it's been a 
great experience.
    Ms. Hulit. Thank you, Kevin. I'd like to follow up on that. 
We heard a lot of comments about the role that the SBA and the 
SBDC provides in helping with the business plan to get started 
and get that first loan. But, truly--and this is for the other 
business owners and the audience to hear--one of the most 
important things, I think, that the resource partners do is 
help businesses once they stumble.
    Just about every small business owner I've ever known has 
stumbled. So having that free business resource so that, you 
know, you're not paying that expensive CPA, that expensive 
consultant--you have that free business counselor.
    And if anybody would like--I know, Damian, you talked about 
a stumble in your business career. If you could, talk a little 
bit about what having that resource available to you and what 
differences it made to the success of your business.
    Mr. Coleman. My major stumbles were financial, just not 
having the revenue to get the business going. It got to the 
point where I've been--I still contract myself, and trying to 
do a 40-hour contract and run the business with employees gets 
pretty hard.
    As far as going through the process of doing the business 
plan, it became a little bit of tension there in the household 
because it was continuously me spending money from the family's 
budget to get the business up and going. And that's what was 
the major fall of me starting up originally. All the money just 
ran out.
    So then I got the contract here in Arkansas and was able to 
save money up again and then pay the CPA to file all my 
paperwork with the state and get the business running. Just the 
out-of-pocket expenses were ridiculous, really, when I look 
back at it now, knowing that the SBA was out there and had 
services that would provide those documents for me free of 
charge. Did I answer your question?
    Ms. Hulit. You did. I think it's the energy that gets put 
in the catch-up when you've gotten behind in your paperwork and 
financially to try and dig back out from that mess to move 
yourself forward. And, again, I think my experience in working 
with some of the finest resource counselors in the country is 
that they help you make that manageable.
    Senator Pryor. Let me ask you, if I can, Ms. Hulit, about 
your announcement today. Can you cover that again? And let's 
kind of put that in practical terms for these folks here and 
how that will help them and others like them get started.
    Ms. Hulit. Sure. The announcement today is that we're 
waiving the upfront borrower's fee for our loans, 350 and 
under. And, again, that's for veterans. That is part of the 
startup cost. There's two reasons for wanting to do it. 
Obviously, the first reason is we want to do something that 
will benefit our veterans.
    But by making this announcement, hopefully, for the veteran 
who may not know about SBA loan programs or the SBA at all, 
they might hear, ``Oh, do you know there's this new program, 
and it's especially for veterans--no fees.'' Then that will 
start them to look at the resources.
    Clearly, there's a material benefit. You know, every 
business has startup costs. You have startup costs to buy your 
inventory, to put your deposit down on your lease, to hire your 
first employees, to have payroll before you have customers. You 
don't need to be paying that several thousand dollars in your 
fee just to originate the loan.
    So if we can waive that fee or reduce the fee to zero for 
this time period and help promote more awareness about our 
programs and about the lending opportunities, that's really 
what we're trying to do. And the Express program, as was 
mentioned earlier, is a very quick turnaround program. Our 
Express lenders are delegated lenders so that they can do it on 
their own authority.
    So it's a quick turnaround, now with no fees to originate 
them. And, hopefully, it's going to get more capital into the 
hands of small businesses, veteran-owned small businesses, and 
get them more connected to the resources that we provide.
    Senator Pryor. Well, that's one of the things, obviously, 
about a business. It's important to have training and access to 
mentors and resources and things. But access to capital is also 
something that's absolutely critical, and that, obviously, we 
see as a struggle in the small business population at large, 
but certainly with the veterans.
    You know, one of the things I try to do in the Senate--I 
haven't been successful yet, but I'm trying to do a small 
business savings account, like an IRA, so people could take 
their savings and stick it into an account, and they do that 
tax free, so they don't get taxed on that, just like an IRA or 
something. So then when you are ready to start your business, 
then you can use that tax free to get your business started.
    You know, the theory is that it sure does help when you go 
to the lender and you say, ``Look, I've already saved $10,000, 
$20,000, $30,000.'' That's a huge jump that a lot of people 
don't have. So just something that seems pretty small like that 
could be pretty significant for these folks.
    Ms. Hulit. I don't disagree at all. I think that's a very 
good point. And I also want to thank Senator Pryor for his 
encouragement of the SBA to think outside the box on what we 
could do. There's so many things that require statutory 
language. They require Congress to vote to move issues forward, 
many of which are included in our 2014 budget, such as the 
expansion of funding for the Boots to Business program.
    But then there are other things that we can do sort of 
administratively, and Senator Pryor has really encouraged us to 
take a good hard look at that. Part of the result of lowering 
our fees on the veteran loans was because of the dialog we had 
on that.
    Senator Pryor. Thank you. And Senator Landrieu has been a 
tremendous leader on that. One of the things we want to try to 
do is to give you statutory authorization to do some of these 
that you're doing and allow you to shift some resources around 
to really focus on some of this, and all in the right way.
    Ms. Montgomery, I know that you are participating in the 
VWISE program. Could you just give us kind of a one-minute on 
that? And, here again, I think a lot of women don't know about 
that program. So let's talk about that for a second.
    Ms. Montgomery. I can put it in one word. It's phenomenal 
to have 100 female veterans in one room with a single goal of 
achieving your own business. There is so much energy. Six to 
eight weeks prior to the three-day conference, we have 
homework, we start building our business plan before we even 
get there. We start communicating with each other on the 
forums, and we have homework. So by the time we get there, we 
kind of have an idea maybe of what we're going to do.
    Three days of--I can't even remember all of the 
conferences. But then we have a year afterwards where we have 
access to those mentors within the VWISE program. So they don't 
walk away at the end of the conference. They're there for us, 
and it's a great experience. I was talking to Ms. Fitch this 
morning, and I said, ``If you get the chance, you need to do 
it.''
    Ms. Hulit. I just want to mention that that program, as 
well as the Entrepreneurship for Service Disabled Veterans and 
the Boots to Business program, is coordinated out of our Office 
of Veterans Business Development in Washington. Our associate 
administrator wishes he could be here with you today. He 
himself is a retired Lieutenant Colonel from the U.S. Marine 
Corps and has a real passion for making sure that these 
programs are developed and expanded.
    Senator Pryor. And let me also say we've got the National 
Guard here--Mr. Frisby. We need to think about that. All the 
veterans know this, but in the world of the military, there's 
the active component, the active duty folks, and then there's 
the reserve component, which is Guard and Reserve. Sometimes 
the Reserve gets left out of that, so we need to be clear that 
the Guard and Reserve are both extremely important.
    I would like to know, Mr. Frisby, some of the unique 
challenges that you think someone in the reserve component, 
whether Guard or Reserve, have in trying to start their own 
business. And, also, one of the things that I do in Washington 
is I'm Co-chairman of the Senate Reserve Caucus, and we focus 
on Guard and Reserve issues.
    One of the things we're trying to do is get that 
unemployment rate down with our Guard and Reserve folks and 
also try to open opportunities, either professional 
opportunities, starting your own business, credentialing 
opportunities, and things like that. So we'll work on that. But 
give us your sense of the unique challenges that the reserve 
component faces.
    Mr. Frisby. Sure. You know, first off, it has to be 
education for our soldiers and airmen in the state of Arkansas, 
just knowing that these programs are available to them and that 
they have this option. You know, we were talking about how to 
get the word out, and I think that some of that has to be that 
we need to get some literature into the armories that these 
soldiers are serving in. We have stations in our armories where 
we have educational materials, we have job opportunities, and 
we also need to get something from the SBA in there so that 
they know that these are some services that are offered to 
them.
    Everyone around this table probably knows that, you know, 
even if the soldier or the airman doesn't know it when they 
enter the service, they're kind of bred to win. They're kind of 
bred to succeed. And they certainly realize that potential when 
they start putting on the uniform to serve.
    So I think that you will find you have an incredible amount 
of resiliency in the service members to come up with incredible 
ideas that would probably succeed in the civilian workforce. So 
if we can get that knowledge to them, they can understand that 
they have the potential to take that idea and actually run with 
it and develop it into something that would probably change 
their lives forever. So I think that education is probably the 
first step.
    Traditionally, when people think about issues with the 
Guard and Reserve, when it comes to employment, they always 
think, ``Well, I'm going to have to give this guy up for one 
weekend a month, maybe two weeks in the summer.'' And for the 
last 10 years, in the state of Arkansas, we've had over 12,000 
soldiers and airmen who have deployed for 90 days to 18 months 
at a time. So, traditionally, we think of that being the 
challenge.
    I think I referenced in my opening comments that a lot of 
times, these soldiers leave, deploy, and really don't know 
what's waiting for them when they get back in terms of 
employment. So, again, when we go through our Transitional 
Assistance Program for those soldiers who are coming back from 
a Title 10 deployment, being able to get that word to them to 
let them know, ``I know you've got a great idea. Now, let us 
help you take that idea and turn it into something better.''
    I think if we can do that and make that transition better 
for them, then we'll really make progress in what we're trying 
to do today.
    Senator Pryor. I always remember a story of when I was on 
the Armed Services Committee right when I came to the Senate, 
and we were just getting involved in Iraq. All that was really, 
really going hot and heavy. We spent hours and hours and hours 
each week on Iraq and talking about all the issues there, and 
there were thousands of them, it seems like.
    But I remember one of the big--I think it was a three 
star--came in one time, and he had been in Iraq, and he had 
actually served when the booted brigade was over there. And, 
basically, he told us in this meeting, ``You know, those guys 
in the Arkansas Guard are great, because back home, they're 
plumbers and welders and school teachers and electricians and 
car mechanics. There's really nothing they can't do.
    ``So we would get over here, and we needed to up arm our 
Humvees, you know, because we're getting hit with all this 
stuff, and they said, `Hey, man, we can do that. Just give us 
some torches and some steel plating,' and they got it done.'' 
It was just like anything that was going wrong, they could fix 
it. They could work on it. They were very creative and 
innovative.
    I do think that is what you get when you get these guys 
that want to get out and own their own businesses. They're 
going to get it done. You're going to get out there, and you're 
going to get it done, and you're going to see to it.
    Let me ask one other question, if I may. We talked about 
how getting information to veterans is critically important. 
And maybe the VA can do better. Maybe the Arkansas Guard can do 
better. Maybe, you know, whoever can do better. The military 
itself, as people are processing out--maybe there's more 
information that can be made available.
    But, you know, the folks that are in the finance business, 
too--I'm wondering what your outreach is like. And I know 
you've got a lot of other balls in the air, but how do you try 
to reach out, and how do you try to get the word to veterans 
and try to get them involved in what you have? Obviously, 
you're helping a lot of them.
    Ms. Meador. I will tell you the biggest struggle we have is 
very common to SBA, that we're a nonprofit, so we don't have 
the marketing tools that a lot of banks have. Also, with 
Arkansas Capital Corporation, one of our main concerns is that 
we need to make sure we don't look like we're competing or 
taking business away from banks. We're really targeting loans 
that maybe banks aren't willing to do on their own, based on it 
being a startup or it being a riskier loan, or maybe due to 
collateral, things like that.
    So we're very limited on how we can get the word out 
ourselves because of the kind of company that we are. However, 
one thing I wanted to note that you made in your comments, 
Senator Pryor, is one of the initiatives that you're trying to 
set aside a savings plan for the veterans.
    That's great, because one of the biggest struggles, as a 
commercial lender, that we have is that you may have a great 
idea, or you may have a great business, and if you started that 
business with not a lot of capital, it makes it very difficult 
for it to succeed, because capital is king. Everybody has said 
that.
    But, more importantly, if you're going to start up a 
business, I always say the motto, ``You've got to have money to 
borrow money.'' Many small business owners don't realize that I 
cannot provide 100 percent financing for a startup business, 
which is hard, especially if you've dedicated your whole life 
to this country, and you don't have a lot of backup, or you 
didn't know that, ``Hey, I should have saved some money,'' 
because you didn't realize when you get out of the military 
that you're going to start a business, because a lot of them 
don't know the path that they're going to take.
    So being able to have that resource will open so many doors 
for a lot of veterans that I run into that have a great idea or 
I want to help, but they don't have the capital to get started. 
And I will also say that waiving the fees is huge, because, 
like you said, a lot of the loans that we're doing for veterans 
are $350,000 or less.
    It's hard for them--you know, we don't think it's a lot to 
say it's $5,000 or $6,000. But that's $5,000 or $6,000 that 
they can have for working capital that can help their first six 
months to a year in operation. It can make a big difference. So 
having those two things is really going to set a huge pathway 
for a lot of veterans to be able to be more successful and to 
really be able to grow faster.
    As we have heard from our customer, the biggest struggle 
was being able to grow. They might be able to open the doors, 
but then what happens after that stage? How can we help them 
grow? And having access to capital and limiting fees--some of 
the things that you have done will really make a big 
difference.
    Ms. Hulit. I wanted to add that on the marketing side--
because we do have a challenge with that--one of the advantages 
of the SBA program is that we guarantee loans, but the banks 
are the ones that provide the loans, and the banks do have 
marketing budgets. So, as the Senator mentioned, I flew in from 
California yesterday, where I attended a conference, the 
National Association of Government Guaranteed Lenders, which is 
the trade association of banks that do SBA loans.
    There was the highest attendance ever. There were over 
1,000 banks there, and we talked about this initiative, and we 
talked about lending to our veterans and getting them to 
increase their lending, knowing about the fee waivers, et 
cetera. So it's deploying that private sector network to get 
out and market to the community.
    But I also wanted to mention I know that the folks here, 
how their own small businesses--but another way that veterans 
enter entrepreneurship is largely through franchises. And we 
signed a strategic alliance memorandum the day before yesterday 
with the International Franchise Association, because their 
member franchises have special programs, like UPS. We did the 
announcement at a UPS store with a vet who had his $30,000 
franchise fee waived by UPS because he's a veteran to start 
that UPS shop.
    So through the IFA, they have several franchisors that have 
special initiatives to help veterans start their franchise. So 
they'll be marketing the SBA through their materials, and we'll 
be marketing the IFA's veterans initiatives through ours. So 
we're trying to do those strategic alliances with the key 
industries that do a lot with the SBA, and franchise is one of 
them. There's more veterans in franchising than the average 
population.
    Senator Pryor. That's great. Let me ask our business owners 
here for that one bit of advice, one of the things you've 
learned. If you all could have a room full of people who were 
in your shoes a year or two ago, what would you tell them right 
now about how to get started and how the process should work?
    Mr. Wallace. The first thing--and I agree--cash is king. 
You have to have it. If you don't have it, the banks--and I 
don't blame them--they're not going to talk to you. I laughed 
about it, but, really, the civilians do not post rule guards at 
the roads, so you've got to look both ways when you cross that 
doggone road. You've got to know what you're doing.
    Equally important with getting the loan--which, again, the 
cash--is understanding what you're going to do, understanding 
the business that you're going into. I think a lot of 
businesses fail. Karen and I, at one time, had the worst 
restaurant that ever existed in Arkansas. I thought it was a 
good idea. You know, we have two cups. That's all that's left 
of $100,000 that we put in that restaurant. So I keep those two 
cups.
    But if a veteran can go out and get on-the-job training 
with someone, if you can get into industry and learn it for six 
months, learn it for nine months--classes are great. They 
really are. But what you get taught in a class is not always 
what happens in the real world. And I would go into every class 
that SBA--and I have, just about--that the Small Business 
Technology Center offers. Those are great.
    Mr. Kidd. I'd be happy to add--since David brought up a lot 
of key points that I would like to share as well--I think I may 
have had the second worst restaurant the first three months. 
And a lot of that was simply because of what you just said. I 
didn't have the proper training, you know, for starting a 
restaurant. I had a great idea. It still is a great idea. But I 
didn't have that experience. I had to learn for myself.
    In the long run, probably, that's a good thing. But not 
everybody can afford to go through that. I mean, I was 
fortunate that I did have some money to start out, and that 
helped me get through it. Again, you know, getting the grants 
was a huge part, getting the refinance, things like that.
    But I think--and a lot of people know this--most businesses 
don't succeed because of a bad idea. It's not a bad idea. It's 
simply that the money runs out. And anything you can do to 
prolong that, to get more training, experience, knowing more 
going into it, and knowing more about these programs--I mean, I 
had no idea about it.
    But one of the things that--again, I know this was brought 
up a lot, you know, talking about veterans and their tenacity 
and their willingness to do whatever it takes. Some of that is, 
you know, they go out and find those things. There's a way. 
There's things that happen for reasons. And people who are 
willing to do that will figure those things out. But, again, 
the more you can learn up front going in, the better off you're 
going to be.
    Mr. Coleman. What I would say is that it won't be easy. I 
mean, there will be a lot of struggles along the way. But just 
really, really, don't give up. If it's something your heart is 
set on, just follow it and keep on going.
    I've had knock-downs, and I've submitted plenty of 
proposals for contracts that I didn't get. I spent a few weeks 
just preparing it to hear, ``I'm sorry,'' you know. But I just 
kept going and kept going, and everything seems to have turned 
around now. But if I had stopped back then because of that, 
then I wouldn't be here today.
    Senator Pryor. Ms. Montgomery.
    Ms. Montgomery. I agree with the gentlemen. But, also, 
there is a term that has come out called solo entrepreneur. 
Understand that your business does not happen in a vacuum. 
You've got these people who are there rooting for you, and 
they're a part of the team to help you accomplish that mission. 
Sometimes you may have to search for the right person, but 
they're there to root you on. So solo entrepreneur is an 
oxymoron. It's a team job.
    Ms. Meador. I would also like to state that one advantage 
about SBA and being an SBA lender is that we are able to 
provide more capital than most conventional loans due to 
collateral limitations. We also have the ability to amortize it 
out longer than traditional bank loans. So that gives a chance 
for the small business to basically--what I say--breathe or 
have those learning curves without shutting the doors. That's 
just vital for any small business
    And, also, we have a lot more flexibility during the first 
couple of years. If you need to be on interest-only for a 
little while, that is also a great SBA benefit, giving us, as a 
commercial lender, that extra avenue, because a lot of 
commercial loans don't have that option. They'll either say, 
``Look, I can advance you $75,000,'' when you really needed 
$100,000.
    And a lot of veterans say, ``Hey, I just want to get 
started,'' and they don't think about what's going to happen 
when they get close to the finish line and they only have 
$75,000 when they needed $100,000. It can mean all the 
difference in being able to keep the doors open or having to 
shut the doors.
    Like the gentlemen have said, they don't stop. They keep 
going, but it's a struggle. And the great thing about SBA and 
being able to put an SBA loan together is that even though it's 
a struggle, the SBA loan really does help them keep the doors 
open and get past that struggle so they can build on and keep 
growing.
    Ms. Hulit. I've heard a lot of the strengths that come with 
being a veteran and some of the unique skills that you have as 
successful entrepreneurs. Are there any particular challenges 
of being a veteran-owned small business?
    Clearly, the scheduling of the Guard and Reserve is a 
particular challenge for an entrepreneur. But are there any 
other challenges that come with being a veteran-owned small 
business that's different from civilian, from your perspective?
    Mr. Kidd. Well, just to add to that, I don't think there's 
any challenges to that part. I think there's more benefits to 
being a veteran. There's a lot more help to veterans than, say, 
the average person that doesn't have that background. The 
challenges that veterans are going to face are the same that 
every other business owner is going to face, because they're 
just going to be there. That's just part of the deal. But, 
again, I only see benefits from being a veteran. I really do.
    Senator Pryor. I know, Ms. Nelson, you mentioned something 
that you have--I think it's Boots to Business--at Little Rock 
Air Force Base. Tell us about that and how that's going. Of 
course, Little Rock Air Force Base--and, again, most people in 
the military know this. There's a huge active duty component, 
but there's also a big Guard presence there.
    Ms. Nelson. Well, this is a part of the national initiative 
that was rolled out first as a pilot program and then expanded 
to bases and various installations all over the country. We 
started ours about May, I think. The challenge for us has been 
marketing it.
    We have actually been a part of the transition program out 
there for years. Sometimes our SCORE volunteers do it, and 
sometimes we would participate as well. So we've been out 
there. But this is a more focused and in-depth entrepreneur 
training that was developed in conjunction with the Department 
of Defense.
    So we're seeing now more participation, so we've just got 
to do a little bit better job. And we want to reach out to the 
Guard and Reserve and other places as well as we can with a 
staff of 10. But I've got six veterans, so I can do it.
    Senator Pryor. But are you seeing numbers increase out 
there? Are you seeing more and more people participate?
    Ms. Nelson. We are. This last time we had, I think, 15, and 
it's two days that we participate. So it's a little bit 
challenging staffing wise, but if we can reach them, it's worth 
it.
    Senator Pryor. So we've gone through this discussion, and I 
know that some of this may have prompted other ideas or 
suggestions or stories on your part. Does anybody want to add 
something? We're going to break up here in just a little bit. 
But does anybody want to add something or tell us something 
that we've missed or that we're not quite getting right?
    Ms. Meador. I think the only thing I want to add or make 
sure people realize with veterans is that they have a great no-
stop personality, and you really can't separate that from small 
business owners, because, as a lender, I always say we're the 
most pessimistic people out there. We always think about what's 
the worst that is going to happen, that the world is going to 
collapse, and we are clearly pointing out the negatives when we 
are meeting with people.
    But veterans want to learn. They're open minded. And it's 
really great that we have products out there that are willing 
to assist them and get them into being successful 
entrepreneurs, because, as we noted in all of the conversations 
today, their personality alone can really make a huge 
difference in the economic growth not only of Arkansas but the 
whole country.
    I'm excited that you've been able to provide this 
opportunity for us to learn all about each other. I've learned 
a lot, not just from doing lending, but just from sitting here 
and seeing what kind of initiatives we have. It's always great 
to hear that Arkansas has something special, but it's always 
great when the country comes together in making sure that we 
can do something together as a team, because it's a team 
effort. We all have to come together in order to be successful.
    Senator Pryor. That's right. Let me also ask, if I may--I 
know that Ms. Roderick has mentioned before to me and other 
contacts, and I've heard a couple of other people say it as 
well today, about having a good mentor. Is that your 
experience, too, in terms of lending, if there's a mentor in 
the picture, someone who's been through it before? Tell us how 
important that is.
    Ms. Meador. Absolutely. That's a great point. What I tell a 
lot of small business owners is--and a lot of people don't 
realize this--if you're wanting to start a business, sometimes 
it not just about being a good cook.
    Sometimes people want to start a restaurant and say, ``I'm 
a great cook.'' That's actually a very small part of being a 
small business owner. You actually have to learn how to hire 
and fire employees, do things that you don't want to do, such 
as know what financial statements mean. And not everybody can 
do those things.
    So if you're not good at numbers, or if you're not good at 
being able to hire and fire, or those kinds of things, you've 
got to have good people beside you. So I make sure when I'm 
visiting with a small business owner to find out where the 
weaknesses are. If they don't understand financial statements, 
they'd better get an accountant with them that can help them so 
they can make sure they prepare their tax returns properly.
    We also work, obviously, very well with the Small Business 
Technology Development Centers, because some of them don't know 
how to market. Marketing is a big problem, and they don't have 
the budget to do that. So having the resource of the SBTDC to 
provide that at no charge is great.
    So, again, to kind of reiterate the team effort, when 
you're a small business owner, you cannot do this by yourself. 
We all have weaknesses. We all know what we're good at. And if 
you're not good at some part of your business, you'd better 
find a mentor, or you'd better find somebody that can help 
guide you and provide you with the proper steps so that those 
weaknesses don't end up becoming a huge issue for your small 
business.
    Ms. Hulit. I don't have any other questions. I do want to 
just say thank you to all the small businesses that came today 
and took the time from your businesses to be here. Clearly, you 
are an inspiration. You know, when you're providing a service 
like the SBA, you know you're doing good. But it really helps 
when you hear it. It really does--to hear that there's a 
tangible result from the good work that our staff does.
    So I just really want to thank everybody for coming. I'm 
inspired by your stories, and I've taken some notes here on 
some ideas on how we can do a better job of making sure that 
the folks in your communities and the veteran community and the 
small business community know what we can do.
    But I also want to thank the Senator for his leadership on 
the Small Business Committee. It's a tremendous effort that you 
make in making sure that the small business and the veteran 
communities' concerns are heard and addressed, and that the 
federal government is paying attention. So, thank you, Senator.
    Senator Pryor. Thank you. Thank you again for being here.
    I do have one more question before we close. Let me just 
tell you a little bit about my experience. I mentioned earlier 
that I hire veterans. I have a couple of them here in the room 
with me right now. But one thing I've noticed is that when you 
hire a veteran, they want to hire other veterans.
    And I think the reason for that is that they--even though, 
let's say, one guy is in the Army Guard and someone else is in 
the Air Force, they still have this frame of reference with 
that person. They know about their training, and they know the 
various things they've gone through to get to where they were 
in the military, et cetera. It really ends up being a great 
network.
    I'm curious about you guys that have your businesses. Are 
you more likely to hire veterans? Of course, it's great with me 
if you do, because one of the things we're looking at is the 
unemployment rate in veterans. But I am curious if that really 
translates into the private sector like I've seen in my office. 
So who wants to go first?
    Mr. Wallace. Particularly in the corporate world, I make it 
a point to hire every veteran I can find. One of the main 
reasons is you can tell a veteran to meet me in the swamp at 
zero-100 hours in the morning or on a Saturday night, and he's 
going to be there. And they understand that.
    Typically, the veterans that would come in--if they did not 
have industry experience, they would be green, but they're a 
quick study and they learn. I'm just a big believer, and every 
veteran I can find I bring on board. Most of my supervisors on 
disasters are veterans, and it doesn't make any difference if 
it's Marines, Navy, Air Force. It's all the same quality.
    Senator Pryor. I actually met with a business owner earlier 
today, and he said he hires veterans. He's kind of surrounded--
his management team is all vets.
    Anybody else want to talk about hiring vets?
    Mr. Kidd. Well, again, I agree with David. You know, 
unfortunately, in my business, I don't have a lot of veterans 
that want to be cashiers, line cooks, and so forth. However, 
the idea that Ms. Hulit said earlier about the franchise is 
very appealing as I look to grow in the future and to be able 
to promote something like that to veterans who are looking 
specifically for some type of venture like that.
    Senator Pryor. Does anybody else have anything to add? 
Well, listen, I want to say this. I want to say thank you to 
all our panelists and thank you all for being here. You're 
focusing on a very important segment of the U.S. economy and a 
very important part of Arkansas' economy, and that is taking 
this amazing training and dedication, like you mentioned a 
minute ago, and their commitment to get it done, just that can-
do attitude, and getting it out there in the private sector and 
really doing amazing things. That's been my experience in 
hiring veterans.
    But, anyway, I want to thank all of our panelists for being 
here, but especially Administrator Hulit for being here, 
because she probably came the longest distance today to be 
here. But we really do appreciate her, and we appreciate SBA. 
You know, this is one of those agencies that really does a lot 
of good out there.
    There's a long, long list of extremely successful 
companies--some of them are Fortune 500 companies--that have 
come through the SBA. Somehow, some way, they got a start, got 
some help early on, and really got over a significant hump.
    So we really appreciate what SBA does, and we know that 
keying in on the veterans' needs and that segment of the 
population is really going to pay big dividends for everybody. 
So, again, thank you for being here.
    Also, I want to announce that this is an official hearing 
of the Senate. And we're going to keep the record open for two 
weeks to allow my colleagues, if they want to, to submit 
questions for the record. So it's very possible that one or two 
of you guys will get questions from some Senator you've never 
heard of.
    But they may have a question, or they may want to know 
more, and we have a little bit of the staff from D.C. down here 
to watch, and they'll kind of get the word to other offices 
about how the hearing went, et cetera. If we do get those 
questions, we'd like a pretty quick turnaround on your 
responses. So what we'll do is keep the record open for two 
weeks to try to encourage any Senators who want to ask 
additional questions to do that.
    But with that, I want to say, again, thank you. Thank you 
for the audience. Thanks to everybody for being here. I just 
want to say what SBA does is great. What SBA in Arkansas does 
is great, and all the partners here.
    I really want to give a special thanks to UALR for allowing 
us to be here today--great facilities. This is an institution 
that does so many great things, not just here in Little Rock, 
but all around the state and really all around the country and 
world, for that matter. But, anyway, we thank you all for being 
here.
    And with that, we'll adjourn, and we'll leave the record 
open for two weeks.
    Thank you.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

[GRAPHIC] [TIFF OMITTED] T6305.006

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
